U.S. Department of                       The Inspector General   Office of Inspector General
Transportation                                                   Washington, DC 20590
Office of the Secretary
of Transportation




January 17, 2013

The Honorable Randy Neugebauer
United States House of Representatives
Washington, DC 20515
Dear Representative Neugebauer:
Thank you for your January 26, 2012, letter in which you raised concerns with the
Federal Aviation Administration’s (FAA) decision to realign the Abilene Regional
Airport’s terminal radar approach control facility (TRACON) functions into the
Dallas/Ft. Worth TRACON. Your letter questioned several specific aspects regarding
the three business cases used to support FAA’s decision, and cited concerns over the
lack of transparency regarding FAA’s justification for the realignment. As agreed
with your staff, we reviewed FAA’s costs and potential savings associated with the
realignment, including the underlying assumptions used in the business cases.
Accordingly, we are providing the results of our review, which we discussed with
your staff on October 3, 2012.

The scope of our review encompassed FAA’s three business cases—including one
independent business case prepared by an FAA contractor—that the Agency used to
support its realignment decision. We interviewed FAA and National Air Traffic
Controller Association (NATCA) representatives at the Headquarters level as well as
the author of the independent business case regarding the findings of FAA’s three
business cases, the assumptions used, and why each case was produced. We visited
the Abilene air traffic facility and the Dallas/Ft. Worth TRACON and interviewed
local FAA and NATCA representatives, the Abilene Airport Director of Aviation, and
the Dyess Air Force Base Airspace Manager about the business cases and the current
status of the realignment.

In summary, our review found that none of FAA’s three business cases presented a
comprehensive picture of the costs and potential benefits of the Agency’s Abilene
TRACON realignment effort. While the independent business case provides the most
detailed cost comparison due to how it measured long-term air traffic controller labor
costs—the largest cost driver of the realignment—none of the business cases provide
enough information to determine whether the TRACON realignment would result in


CC-2012-012
                                                                                                                      2


future cost savings or operational benefits, such as how changes would enhance the
flow of air traffic that can impact the costs and savings of potential realignments. This
lack of key details is similar to our 2010 findings regarding the business cases used to
support the Boise TRACON transfer to the Salt Lake City TRACON, 1 and highlights
the need for FAA to produce more comprehensive business cases for its future
realignment efforts.

BACKGROUND
The original Abilene air traffic facility was commissioned in 1961 as a stand-alone
control tower to direct traffic at the Abilene Regional Airport. In 1995, the tower
inherited the broader TRACON functions that had been performed by military
controllers at nearby Dyess Air Force Base. The original Abilene facility was in poor
condition, with continuous repairs needed for items such as water leaks and mold
remediation. Also, the 62-foot tall tower presented line-of-sight issues for controllers
monitoring aircraft on the tarmac due to structures constructed after the tower was
commissioned.

As a result, FAA began planning for the new Abilene facility in fiscal year 2002.
Construction began in April 2010 and was completed in March 2012 at a cost of
$21 million. FAA’s original plan was to transfer the facility’s TRACON functions to
the Dallas/Ft. Worth TRACON at the time the tower was commissioned. However,
problems with implementing a new digital processing and controller display system 2
at the Dallas/Ft. Worth TRACON have delayed transferring the Abilene TRACON
functions until 2014. As a result, the TRACON functions are currently performed in a
temporary trailer located next to the new control tower in Abilene (see exhibit A for
pictures of the trailer).

Much of the planning for the new Abilene facility occurred during a time of
contentious labor-management relations between FAA and NATCA. Disagreement
between the parties centered on a disputed 2006 labor contract, implemented by FAA,
resulting in little interaction between the organizations in subsequent years. After
FAA and NATCA signed a new collective bargaining agreement in 2009, the two
sides agreed to re-examine eight TRACON realignments, including Abilene, through
a joint Realignment Transition Workgroup. 3 The Workgroup examined the status of

1
  “Letter to Idaho Congressional Delegation Regarding the Review of FAA’s Business Case for Moving the Terminal Radar
Approach Control Services from Boise, Idaho to Salt Lake City, Utah,” CC-2009-099, June 30, 2010. OIG reports and
correspondence are available on our Web site at http://www.oig.dot.gov/.
2
  The system is known as the Standard Terminal Automation Replacement System (STARS) and replaces the aging air
traffic automation systems at TRACONs and air traffic control towers. A joint program between the Department of Defense
and FAA, STARS ensures the safe separation of civilian and military aircraft.
3
  The other realignments included the Cleveland, Youngstown, Mansfield, Akron, and Toledo, Ohio TRACONs into a new
TRACON in Cleveland; the Muskegon, Lansing, Grand Rapids, and Kalamazoo, Michigan TRACONs into a new
TRACON in Kalamazoo; the Champaign, Illinois TRACON into the Chicago TRACON; the Dayton, Ohio TRACON
into the Columbus TRACON; the Reno, Nevada TRACON into the Northern California TRACON; the West Palm Beach,
Florida TRACON into the Miami TRACON; and the Rome, New York TRACON into the Syracuse TRACON.


CC-2012-012
                                                                                                                             3


each realignment; reviewed quantitative and qualitative information, including
business cases; and made recommendations as to whether a realignment should go
forward.

THE THREE BUSINESS CASES DO NOT PROVIDE SUFFICIENT
INFORMATION REGARDING POTENTIAL FUTURE SAVINGS AND
BENEFITS
As summarized below, the three business cases—January 2008, December 2010, and
February 2011—analyzed the potential costs and savings of various options regarding
whether to keep the TRACON functions at Abilene or transfer them to another facility
(see exhibit B for a detailed comparison of the three business cases). In our opinion,
the February 2011 business case provides the most detailed cost comparison given
how it projected long-term air traffic controller labor costs, the largest cost driver of
the realignment.

• January 2008 Business Case—The first business case, completed by FAA’s Air
  Traffic Organization (ATO) in January 2008, concluded that realigning the
  Abilene TRACON functions into the Dallas/Ft. Worth TRACON was the best
  option, and would result in $7.4 million in total cost savings, or $4.3 million in net
  present value 4 cost savings, by reducing overhead staff and the number of
  buildings that needed to be operated and maintained. 5 However, this business case
  focused mainly on the infrastructure costs of the realignment, kept controller
  staffing levels neutral, and assumed that the Abilene TRACON controllers would
  be co-located 6 at the Dallas/Ft. Worth TRACON, resulting in no pay increase for
  the transferring controllers.

• December 2010 Business Case—The second business case, completed in
  December 2010 by FAA’s ATO after input from the Realignment Transition
  Workgroup, also concluded that realigning the TRACON functions into the
  Dallas/Ft. Worth TRACON was the best option, and would result in nearly
  $57 million in cost savings due to reductions in controller staffing levels and other
  operating costs. 7 Unlike the January 2008 business case, this business case
  assumed that the TRACON transfer would result in a consolidation, 8 which would

4
  Net present value calculates future costs and benefits of a project in the present dollar value. In this case, it is used to
determine whether a project will result in more benefits to the Agency or more costs over a period of time.
5
  Abilene Regional Airport (ABI) Air Traffic Control Tower (ATCT)/TRACON Business Case, ATO Terminal Services –
Terminal Planning, January 2008.
6
  Co-location is defined by FAA as housing several different TRACONs, which provide air traffic control to different areas,
in a single facility where controllers would only be certified to work a specific area at a pay band appropriate for the area
they are controlling.
7
  ABI ATCT/TRACON Business Case, ATO Terminal Services – Terminal Planning, December 2010.
8
  Consolidation combines TRACONs for numerous airports within a common facility. Controllers assigned to a
consolidated facility certify on all areas and are paid equally, regardless of the number of aircraft for which their area is
responsible.


CC-2012-012
                                                                                                          4


       substantially increase salaries for controllers transferring to Dallas/Ft. Worth.
       However, the Realignment Transition Workgroup agreed to a scoring system that
       emphasized the operational, Next Generation Air Transportation System
       (NextGen), and infrastructure aspects of the realignment over the cost aspect, and
       made labor costs a minor consideration in its evaluation. In addition, the
       Workgroup projected future controller labor costs over a 15-year period, while
       other operating costs were projected over a 40-year period.

• February 2011 Independent Business Case—A third business case, completed
  by an FAA-hired independent contractor in February 2011, conflicts with the first
  two cases, concluding that it would cost approximately $18 million (in net present
  value) more to consolidate TRACON operations at the Dallas/Ft. Worth TRACON
  due to lower controller salaries at the Abilene facility versus the Dallas/Ft. Worth
  TRACON. 9 This business case also assumed that the TRACON transfer would be
  a consolidation, with increased salaries for transferring controllers. However, the
  independent case only assessed the financial differences between the options, and
  did not emphasize the operational, infrastructure, and other aspects of the
  realignment. Also, the independent business case projected both controller salary
  and other operating costs over a 44-year timeframe.
While the independent business case provides the most detailed cost analysis, none of
the business cases provide enough information to determine whether the TRACON
realignment would result in future cost savings or achieve operational and other
benefits. Although the estimates for items such as construction, communication costs,
and controller salary differences are reasonable, none of the three business cases
quantify how other Agency initiatives, such as implementing operational changes and
NextGen enhancements, would achieve future efficiencies that can impact the costs
and savings of potential realignments. For example, while the December 2010
business cases stated that the realignment could result in improved internal
efficiencies and reduced costs for airspace users, it did not quantify these anticipated
benefits. Explaining and quantifying these initiatives in future business cases would
provide FAA officials and other stakeholders with additional information regarding
the costs, savings, and potential benefits of consolidating air traffic facilities.

UNDERLYING ASSUMPTIONS USED IN FAA’S BUSINESS CASES
WILL LIKELY DIFFER FROM WHAT WILL ACTUALLY BE
IMPLEMENTED
The three business cases used different economic and operational assumptions in
analyzing the potential options regarding the Abilene TRACON realignment,
including different facility lifecycle timeframes, staffing levels, equipment, and other
items. FAA used some of these assumptions based on Federal regulations, Agency
9
    ABI TRACON Business Case Review – Independent Assessment, Houghton Associates, Inc., February 2011.


CC-2012-012
                                                                                       5


best practices, or economic factors that existed at the time a business case was
completed, such as Office and Management and Budget estimates for inflation and
discount rates. Other assumptions differed due to changes in Agency policy that
impacted the outcomes of the analyses. For example, at the time the first business case
was completed, FAA’s policy was to co-locate two or more separate facilities, while
the policy for the second and third business cases was to consolidate facilities into
one.

However, the assumptions used in the three business cases regarding staffing levels,
equipment, and other items only represent estimates of future costs, and will likely
differ from what will actually be implemented, resulting in different costs and
savings. For example, the independent business case assumed that the realignment
would require 8 additional controllers at the Dallas/Ft. Worth TRACON and 40 hours
of training on the new digital processing and controller display system equipment for
13 Dallas/Ft. Worth TRACON and 14 Abilene Tower employees. However, under the
terms of the FAA/NATCA collective bargaining agreement, these decisions require
negotiations between the two parties. FAA and NATCA have not begun negotiations
regarding controller staffing levels at the two sites, transfer procedures for employees,
relocation incentives, training, and other related issues. These negotiations will likely
result in different costs to the Agency than were projected in the independent business
case.

MULTIPLE BUSINESS CASES WERE LARGELY DRIVEN BY AN
EVOLVING RELATIONSHIP BETWEEN FAA AND NATCA
FAA’s decision to produce three business cases was mainly influenced by the
Agency’s evolving relationship with NATCA. The first business case was completed
by FAA’s ATO Terminal Planning unit during a time of contentious labor-
management relations, with no input from the union. FAA’s Terminal Planning unit
also completed the second business case nearly 3 years later. However, with a new
collective bargaining agreement in place and relations between FAA and NATCA
improving, this business case included input on the assumptions and other factors
from the joint FAA-NATCA Transition Realignment Workgroup. Based on the
findings of the second business case, the Workgroup recommended that the
realignment go forward.

NATCA concurred with the recommendation to realign the Abilene TRACON
functions into the Dallas/Ft. Worth TRACON, but it expressed concern that the
methodology used to calculate staffing levels underestimated the number of
controllers needed and the associated costs of relocating the Abilene TRACON. This
concern, along with a desire from both parties for an outside review of the business
case, led senior leaders from FAA and NATCA in 2010 to agree that a third,
independent business case be produced, with FAA selecting Houghton Associates as


CC-2012-012
                                                                                                                            6


the preparer. 10 This business case was completed in February 2011, almost 1 year
after construction on the new Abilene facility had already began.

FAA HAS TAKEN STEPS TO PROCEED WITH THE REALIGNMENT
FAA has already taken steps to proceed with the realignment by adding three
operating positions to the Dallas/Ft. Worth control room to accommodate Abilene’s
TRACON functions. The Dallas/Ft. Worth TRACON currently uses only one-third of
its control room floor, and was designed to accommodate additional TRACON
sectors. In addition, Dallas/Ft. Worth TRACON facility management and local
NATCA representatives have held preliminary discussions regarding aspects of the
future realignment, such as allowing facility controllers to receive training on terminal
automation equipment before the realignment occurs.

Also, if Abilene’s TRACON functions were to remain in Abilene, FAA would have to
make several changes to the existing tower. First, the Agency would have to either
construct an additional 3,100 to 3,900 square feet of space to house the TRACON
function or significantly modify the existing tower building to accommodate the
operation. In addition, FAA would have to make additional improvements to the new
facility, such as improving the heating, ventilation, and air conditioning system. In
addition, FAA would have to install the new digital processing and controller display
system at Abilene, which is not currently included in the Agency’s budget. Finally, if
the current space of the facility is used to accommodate the TRACON, it would
require relocating the technical operations staff, potentially increasing costs to the
Agency.

CONCLUSION
The extent to which FAA realigns and consolidates the Nation’s air traffic control
facilities is an important component of its efforts to modernize the National Airspace
System. If one of the driving factors behind consolidations is cost savings, then it is
important for FAA to be as detailed as possible in its business cases to address the
question of whether these decisions are in the best interest of the taxpayer. With plans
for large-scale facility consolidations in development, it will be increasingly critical
that FAA clearly explain future consolidation plans, expected operational benefits,
costs, and potential limitations to Congress and other stakeholders. This will require
the Agency to provide more information for estimating the costs and expected
benefits of realignment efforts. We discussed the results of our work with FAA
officials, who agreed that it is important to have sound business cases for realigning
and consolidating FAA facilities.


10
     According to FAA, Houghton Associates was selected due to its previous experience with completing business cases for
     other FAA projects, such as the Wide Area Augmentation System.


CC-2012-012
                                                                                      7


If I can answer any questions or be of further assistance in this matter, please contact
me at (202) 366-1959 or Matthew E. Hampton, Deputy Assistant Inspector General
for Aviation and Special Program Audits, at (202) 366-1987.

Sincerely,



Calvin L. Scovel III
Inspector General


cc:    FAA Administrator
       FAA Deputy Administrator
       FAA Director, Air Traffic Control Facilities, AJW-2
       FAA Audit Liaison, AAE-100




CC-2012-012
                                                      8


EXHIBIT A. PICTURES OF THE TEMPORARY ABILENE TRACON




Source: OIG




CC-2012-012
                                                                                                                                                    9


EXHIBIT B. COMPARISON OF FAA’S THREE BUSINESS CASES

                                                                                                                  Houghton Associates
                                          FAA’s January 2008                 FAA’s December 2010
                                                                                                                     February 2011
                                            Business Case                       Business Case
                                                                                                               Independent Business Case

                                    • Construct a new tower at          • Construct a new tower at            • It is more cost-effective to
                                      Abilene and co-locate the           Abilene and consolidate the           construct a TRACON in Abilene
  Recommendation/Finding              TRACON functions to the             TRACON functions to the               than consolidate the TRACON
                                      Dallas/Ft. Worth TRACON             Dallas/Ft. Worth TRACON               functions into the Dallas/Ft.
                                                                                                                Worth TRACON
                                    • $66.5 Million for New Tower       • $2.703 Billion for Investment       • $463.9 Million for Controller
                                      ($27.9 Million for Construction     and Lifecycle Costs (Constant         Labor (Net Present Value)
                                      and Equipage; $16.1 Million for     Dollars)                            • $160.4 Million for Supervisory
                                      Sustainment; $22.5 Million for    • $801.4 Million for Staffing Costs     and Administrative Labor (Net
  Projected Total Cost for            Staffing)                           (Constant Dollars)                    Present Value)
  Recommended Option                • $41.6 Million for Existing DFW                                          • $9.1 Million for TRACON
                                      TRACON ($3.0 Million for                                                  Construction, Equipment, and
                                      Equipage; $4.2 Million for                                                Other Operating Expenses (Net
                                      Sustainment; $34.4 Million for                                            Present Value)
                                      Staffing)
                                    • $7.4 Million Current Year         • $57.2 Million Current Year          • $20.95 Million in Total Labor
                                      Operating Savings ($0.3 Million     Operating Savings ($26.6              Costs Savings (Net Present
                                      Labor; $7.4 Million Facility        Million Labor; $30.6 Million          Value)
  Projected TRACON Savings/
  Additional Cost
                                      Operations)                         Other Facility Operations)          • $4.11 Million in Additional Costs
                                    • $4.3 Net Present Value Savings                                            to Construct, Operate, and
                                                                                                                Maintain Abilene TRACON (Net
                                                                                                                Present Value)
                                    • 20 Year Lifecycle for             • 15 Year Lifecycle for Staffing      • 44 Year Lifecycle for All Costs
                                      Infrastructure and Labor Costs      Costs                               • Assumed Consolidation –
                                    • Assumed Co-Location – No          • 40 Year Lifecycle for Other           Increased Salaries for
                                      Increase in Salaries for            Costs                                 Controllers Transferring to the
  Lifecycle/Labor Assumptions
                                      Controllers Transferring to the   • Assumed Consolidation –               Dallas/Ft. Worth TRACON
                                      Dallas/Ft. Worth TRACON             Increase in Salaries for
                                                                          Controllers Transferring to the
                                                                          Dallas/Ft. Worth TRACON
Source. OIG analysis of FAA documents.



CC-2012-012
